No. 19-1362
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JASON LAUT, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 9th day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,716
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 9, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1362
LAUT, JASON
USA
JOHN CHRISTOPHER KOREVEC
KIRKLAND & ELLIS LLP
555 SOUTH FLOWER STREET
SUITE 3700
LOS ANGELES, CA 90071
213-680-8343
JOHN.KOREVEC@KIRKLAND.COM

